         UNIVERSITY OF PUERTO RICO
         SAN JUAN, PUERTO RICO 00931
NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
                 DUE-9753543
                 EPS-0223152

             FINANCIAL AUDIT OF
          FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORT FOR THE PERIOD
        JULY 1, 1998 TO MARCH 31, 2006




                        MAYER HOFFMAN MCCANN P.C.
                           An Independent CPA Firm
                          2301 Dupont Drive, Suite 200
                             Irvine, California 92612
           XXXXXXXXXXXXXXXXXXXXX
          XXXXXXXXXXXXXXXXXXXXXXX




XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                             UNIVERSITY OF PUERTO RICO


                                                        Table of Contents

                                                                                                                                      Page

Executive Summary:
  Background ........................................................................................................................... 1
  Audit Objectives, Scope and Methodology............................................................................ 2
  Summary of Audit Results ..................................................................................................... 3
  Follow-up of Prior Audit Findings........................................................................................... 4
  Exit Conference ..................................................................................................................... 4

Compliance and Internal Controls:
  Report on Compliance and Other Matters on Internal Control over Financial Reporting
   Based on an Audit Performed in Accordance with Government Auditing Standards .......... 6

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules........................................................ 13
   Schedule A-1 - Schedule of Award Costs (Award No. DUE-9753543) ............................... 15
   Schedule A-2 - Schedule of Award Costs (Award No. EPS-0223152) ............................... 16
   Schedule B - Schedules of Questioned Costs..................................................................... 17
   Schedule C - Summary Schedules of Awards Audited and Audit Results .......................... 20
   Notes to Financial Schedules ............................................................................................. 22

Appendix - Awardee’s Comments to Report
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to the University of
Puerto Rico (UPR) under cooperative agreement number DUE-9753543 for the period July 1,
1998 to December 31, 2003, and grant number EPS-0223152 for the period June 1, 2003 to
March 31, 2006. UPR, as a federal awardee, is required to follow the cost principles specified in
Office of Management and Budget (OMB) Circular A-21, Cost Principles for Educational
Institutions and the Federal administrative requirements contained in OMB Circular A-110,
Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations.

UPR is a higher educational institution located in San Juan, Puerto Rico, with eleven campuses
throughout the island. The NSF awards audited are administered by the Puerto Rico Resource
Center for Science and Engineering. The “Center” was established in 1980 after obtaining an
NSF grant. Although physically located at the UPR Rio Piedras Campus, the Center is ascribed
to the UPR Central Administration, responding to the Vice President for Research and
Technology. The mission of the Center is “To foster and nurture a community of present and
future scientists, mathematicians, engineers, technologists, innovators and entrepreneurs to
provide Puerto Rico with the human resources infrastructure and research base required for the
island’s economic development and global competitiveness.”

Descriptions of the NSF awards we audited are as follows:

DUE-9753543 – Puerto Rico Collaborative for Excellence in Teacher Preparation. NSF
awarded cooperative agreement number DUE-9753543 to UPR for the period July 1, 1998 to
December 31, 2003 in the amount of $5,463,000 for the purpose of UPR assuming
responsibility for planning, operating, and managing The Puerto Rico Collaborative for
Excellence in Teacher Preparation (PR-CETP). The overall mission of the Project is to promote
reform in the teaching and learning of mathematics and the sciences as regards the preparation
of science and mathematics educators, K-12. Objectives of the project are: a) to establish an
ongoing collaboration among UPR-San Juan and the UPR-Rio Piedras, Mayaguez and Cayey
campuses, the Inter-American University System, Ana G. Mendez University College of the
East, Pontifical Catholic University of Puerto Rico, the Resource Center for Science and
Engineering, the Puerto Rico Department of Education, Arecibo Observatory, and local industry;
b) redesign the curriculum, field experiences and selected science, mathematics, and education
courses so as to reflect current research on teaching and learning and to encourage cross
disciplinary conversation; c) to recruit and retain promising students into the teaching
profession, specifically in areas of need like math, chemistry, and physics; and d) establish
mechanisms to enable the science, mathematics and engineering faculty and mentor teachers
to continually learn about and implement new techniques in pedagogy. Cumulative
disbursements for cooperative agreement number DUE-9753543 reported to NSF through
December 31, 2003 were $5,455,004. UPR agreed to provide $1,750,000 of cost sharing for
this award. Cost sharing expenses claimed were $1,749,588.



                                               1
EPS-0223152 - Attaining Research Extensive University Status in Puerto Rico: Building a
Competitive Infrastructure. NSF awarded grant number EPS-0223152 to UPR for the period
June 1, 2003 to May 31, 2007 in the amount of $6,300,000 for the purpose of supporting the
Puerto Rico Experimental Program to Stimulate Competitive Research (PR-EPSCoR) effort to
build and sustain a nationally competitive science and engineering research and education
enterprise. The project proposal presents a plan to develop a multi-disciplinary and multi-
institutional research program within the commonwealth that builds on existing strengths within
its higher education community and has potential for follow-on economic development and
investments from the private sector as well as state and federal sources. The proposed initiative
is to demonstrate to Puerto Rico’s stakeholders that additional prudent investments can
systematically improve the scope of PR-EPSCoR, while at the same time maintaining a focus
on the targeted trust areas. Cumulative disbursements for grant number EPS-0223152 reported
to NSF through March 31, 2006 (the end of the audit period) were $3,342,423. UPR agreed to
provide $3,150,000 of cost sharing for this award. Cost sharing expenses claimed through the
end of the audit period were $1,747,889.


AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

1. Determine if UPR’s Schedules of Award Costs (Schedules A-1 and A-2) present fairly, in all
   material respects, the costs claimed on the Federal Cash Transaction Reports (FCTR), and
   the costs claimed, including cost sharing, are in conformity with Federal and NSF award
   requirements.

2. Identify matters concerning instances of noncompliance with laws, regulations, and the
   provisions of the award agreements pertaining to NSF awards and weaknesses in UPRs
   internal controls over financial reporting that could have a direct and material effect on the
   Schedules of Award Costs and UPR’s ability to properly administer, account for, and monitor
   its NSF awards.


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (2003 Revision) issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996), as applicable. These standards and the NSF Audit Guide require that we plan and
perform the audit to obtain reasonable assurance about whether amounts claimed to NSF as
presented in the Schedules of Award Costs (Schedules A-1 through A-2) are free of material
misstatements. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs. An audit also includes assessing the
accounting principles used and the significant estimates made by UPR, as well as evaluating
the overall financial schedule presentation. We believe that our audit provides a reasonable
basis for our opinion.




                                               2
SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF by UPR
on NSF award numbers DUE-9753543 and EPS-0223152, as well as cost sharing provided.
These costs and the costs questioned as a result of our audit are shown in the Schedules of
Award Costs (Schedules A-1 through A-2) and are summarized as follows:


                                 Funding                             Claimed       Questioned
       NSF Award No.             Source          Award Budget         Costs          Costs

       DUE - 9753543          NSF-Funded        $ 5,463,000          5,455,004       16,030
                              Cost Sharing          1,750,000        1,749,588         -
                              Total Project     $ 7,213,000          7,204,592       16,030

       EPS - 0223152          NSF-Funded        $ 6,300,000          3,342,423         -
                              Cost Sharing        3,150,000          1,747,889         -
                              Total Project     $ 9,450,000          5,090,312         -

Except for the $16,030 in questioned subawardee and indirect costs for Cooperative Agreement
No. DUE-9753543 described below, we determined that the costs claimed by UPR appear fairly
stated and are allowable, allocable, and reasonable for both NSF awards. Specifically, we
questioned $7,546 of subawardee costs because two subawardees were unable to provide
adequate supporting documentation and $984 because one subawardee duplicated a billing for
indirect costs. The remaining $7,500 of questioned costs resulted from UPR over billing indirect
costs for the first two years of the award.

Our audit noted that UPR had two internal control deficiencies that contributed to the questioned
subawardee costs and overcharged indirect costs. Additionally, although we did not question
any cost sharing, we noted an additional internal control deficiency related to the administration
and monitoring of cost sharing claimed by subawardees. Specifically:

   •     UPR did not adequately monitor subaward costs charged to NSF Award No. DUE-
         9753543, which included seven subawards amounting to XXX million or XXX of the total
         costs charged to the NSF award. This occurred because UPR lacks adequate policies
         and procedures for a risk-based system to monitor and report its subaward costs. Based
         on the level of risk assessed, UPR should perform periodic monitoring reviews for each
         subawardee to ensure costs claimed are allowable, allocable, and properly documented.
         This internal control deficiency was initially reported in UPR’s 2003 Fiscal Year A-133
         Single Audit Report.

   •     UPR also did not maintain adequate documentation to support cost sharing expenditures
         claimed by its subawardees and recipients of start-up funds, or require such
         documentation from them, for both Award Nos. DUE-9753543 and EPS-0223152. UPR
         accepted cost sharing from its subawardees for approximately $1.3 million in
         expenditures based solely on certifications from the subawardees which provide little to
         no detail on the nature or type of costs claimed. This occurred because UPR does not
         have adequate, risk-based monitoring procedures in place to ensure that subawardee
         cost sharing expenditures are accurate, allocable, allowable, and adequately

                                                3
       documented. Based on the level of risk assessed, these policies and procedures should
       include a process for reviewing cost sharing expenditures claimed by subawardees to
       verify they are in accordance with NSF regulations and OMB Circulars. Because UPR
       did not have adequate monitoring procedures, we performed alternative testing at
       subawardee sites to affirm that cost sharing claimed was adequate.

   •   UPR lacked adequate policies and procedures for reviewing indirect costs claimed. As a
       result, UPR claimed $7,500 in excess indirect costs for years one and two of
       Cooperative Agreement No. DUE-9753543.

We recommend that NSF’s Directors of DIAS and DGA ensure that UPR (a) develop and
implement written policies and procedures to assess and document each subawardee’s risk of
claiming non-allocable or non-allowable costs and cost sharing expenditures; (b) based on the
risks assessed implement adequate periodic monitoring reviews of the subawardees and, (c)
include in their policies and procedures a provision for reviewing indirect costs to ensure that
they are properly authorized and claimed accurately.

The awarded responded to the draft report on March 19, 2007. In its response, the awardee
concurred with the findings and stated that they are implementing policies and procedures that
are responsive to the recommendations.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have
been satisfactorily implemented. UPR’s response has been included in its entirety in the
Appendix attached to this report.

For a complete discussion of audit findings, refer to the Independent Auditor’s Report on
Compliance and Other Matters on Internal Control over Financial Reporting.


FOLLOW-UP OF PRIOR AUDIT FINDINGS

The UPR 2003 Fiscal Year A-133 Single Audit Report identified a finding for the lack of
adequate subcontractor monitoring. Because of this finding and the associated questioned
costs, we performed additional testing during our audit for the three subcontractors identified in
the finding. We found that overall, UPR still does not have an adequate subcontractor
monitoring system. Our testing disclosed missing documentation for two of these subcontractors
and a duplicate billing for indirect costs at the third subcontractor.




EXIT CONFERENCE

We conducted an exit conference on October 20, 2006 at UPR’s offices.         We discussed
preliminary findings and recommendations noted during the audit. Representing UPR was:


       Name                                         Title

       XXXXXXXXXXXXXXXXX                            XXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXX                            XXXXXXXXXXXXXXXXXXXXXXX

                                                4
Representing Mayer Hoffman McCann P.C. was:


Name                                   Title

XXXXXXXXXXXXXXXXX                      XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXX                      XXXXXXXXXXXXXXXXXXXXXXX




                                   5
COMPLIANCE AND INTERNAL CONTROLS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230



                  REPORT ON COMPLIANCE AND OTHER MATTERS ON
                   INTERNAL CONTROL OVER FINANCIAL REPORTING
                  BASED ON AN AUDIT PERFORMED IN ACCORDANCE
                      WITH GOVERNMENT AUDITING STANDARDS


We audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1
through A-2), which summarize financial reports submitted by the University of Puerto Rico
(UPR) to the National Science Foundation (NSF) and claimed cost sharing for the awards and
periods listed below and have issued our report thereon dated October 20, 2006:

             Award Number                   Award Period                    Audit Period

              DUE – 9753543               07/01/98 – 12/31/03            07/01/98 – 12/31/03
              EPS – 0223152               06/01/03 – 05/31/07            06/01/03 – 03/31/06

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1
through A-2 in accordance with auditing standards generally accepted in the United States of
America; Government Auditing Standards, issued by the Comptroller General of the United
States (2003 revision); and, the National Science Foundation Audit Guide (September 1996), as
applicable. These standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance that the financial schedules are free
of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions is
the responsibility of UPR’s management. As part of obtaining reasonable assurance about
whether UPR’s financial schedules are free of material misstatement, we performed tests of
UPR’s compliance with certain provisions of applicable laws, regulations, and NSF award terms
and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on compliance with
those provisions is not an objective of our audit and, accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed instances of noncompliance that are
required to be reported under Government Auditing Standards and the National Science
Foundation Audit Guide and are described in Finding Nos. 1 through 3, below.



                                              6
INTERNAL CONTROL OVER FINANCIAL REPORTING

UPR management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments made by management are required to assess
expected benefits and related costs of internal control policies and procedures. The objectives
of internal control are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions
are executed in accordance with management’s authorization and recorded properly to permit
the preparation of financial schedules in accordance with accounting principles prescribed by
NSF. Because of inherent limitations in any internal control, misstatements due to errors or
fraud may nevertheless occur and not be detected. Also, projection of any evaluation of internal
control to future periods is subject to the risk that procedures may become inadequate because
of changes in conditions, or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through
A-2) for the period July 1, 1998 to March 31, 2006, we considered UPR’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial schedules and not to provide an opinion on the internal control over
financial reporting. Accordingly, we do not express such an opinion.

We noted, however, certain matters described below involving the internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect UPR’s ability to record, process, summarize, and report financial data consistent with
management’s assertions in the financial schedules. Reportable conditions we identified are
described in Finding Nos. 1 through 3, below.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control elements does not reduce, to a relatively low level, the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
internal control over financial reporting would not necessarily disclose all matters related to
internal control over financial reporting that might be reportable conditions and, accordingly,
would not necessarily disclose all reportable conditions that are also considered to be material
weaknesses. We do not consider any of the reportable conditions described below to be
material weaknesses.




                                               7
FINDINGS AND RECOMMENDATIONS

Finding 1. Inadequate Subawardee Monitoring

OMB Circular A-110, Subpart C, Section .51 (a), requires recipients to manage and monitor
each project, program and subaward. In addition, Subpart C, Section .21 (b)(1) requires
accurate, current, and complete disclosure of the financial results of each federally sponsored
project or program. Moreover, OMB Circular A-133, Subpart D, Section 400(d.3) requires an
awardee to “monitor the activities of subrecipients as necessary to ensure that federal awards
are used for authorized purposes in compliance with laws, regulations, and the provisions of
contracts or grant agreements and that performance goals are achieved.”

Contrary to applicable Federal regulations and the NSF award terms and conditions, UPR did
not adequately monitor subaward costs charged to the NSF Award No. DUE-9753543. UPR
claimed costs from 7 subawards amounting to XXXXXXXX or XX percent of the total costs
charged to the award. Subawardees submit reimbursement invoices to UPR which are
reviewed for budgetary compliance, properly approved, and paid through the regular system for
vendor payments. However, there are no policies or internal controls in place to ensure the
amounts on the invoices are accurate, allocable, allowable, and properly supported per NSF
and OMB grant requirements. The subawardees were not required to submit any supporting
documentation with the invoices and UPR did not conduct financial monitoring at the
subawardee locations. This occurred because UPR lacks adequate policies and procedures for
a risk-based system to monitor and report its subaward costs. This internal control deficiency
was initially reported in UPR’s 2003 Fiscal Year A-133 Single Audit Report. We have identified
questioned costs of $984 for an error which resulted from a duplicate billing of indirect costs by
one subawardee. We have also identified questioned costs of $7,546 for transactions for which
two subawardees were unable to provide the supporting documentation.

UPR’s failure to monitor and review subawardees’ costs reduces UPR’s ability to efficiently and
effectively manage and monitor NSF-funded expenditures and activities by subawardees and
may lead to funds being used for purposes other than those intended under the cooperative
agreement (misuse) or defrauded.

UPR lacks the necessary policies and procedures to assess and document each subawardee’s
risk of claiming non-allocable or non-allowable costs. UPR assumed that the invoices from the
subawardees were sufficient to support the costs claimed, and that an invoice signed by a
responsible fiscal person at the subawardee allowed UPR to accept the claimed costs as valid
and allowable.

Recommendation 1:

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
instruct UPR to develop and implement written policies and procedures to assess and document
each subawardee’s risk of claiming non-allocable or non-allowable costs. As part of that
assessment, UPR should ensure that subawardees have adequate policies and procedures for
overseeing and verifying propriety of subawardee expenditures. UPR should review OMB
Circular A-133 and/or financial statements of subawardees to assess risk. Based on the level of
risk assessed, UPR should perform periodic reviews of each subawardee’s invoices to ensure
costs claimed are allowable, allocable, and properly documented in accordance with NSF
regulations, OMB Circulars A-110 and A-133, and any other applicable OMB Circulars.




                                                8
Awardee’s Comments

The UPR Resource Center for Science and Engineering (RCSE) is developing a Subawardee
Financial Monitoring Process that will be ready by September 2007, and will be submitted to the
UPR Central Administration for approval and authorization for implementation. This monitoring
process includes periodic reviews of subawardees’ invoices to ensure costs claimed are
allowable, allocable and properly documented in accordance with NSF regulations, OMB
Circulars A-110 and A-133, and any other applicable OMB Circulars.

The UPR-RCSE has already implemented internal controls to ensure that the amounts on the
invoices are accurate, allocable, allowable and properly supported. Invoices to be submitted by
subawardees must now be accompanied by the pertinent supporting documentation and any
other evidence that confirms or verifies the expenses claimed in order for the UPR-RCSE to
proceed with payment. The UPR-RCSE accounting staff has been instructed by the Finance
Director to comply with this ruling (See Appendix of this report for copy of memo dated January
30, 2007).

The UPR-RCSE accounting staff re-claimed the indirect costs double-billed by one of the
subawardees. The $984 in question was returned by the subawardee and we will wait for NSF
instructions on how to proceed with these funds.


Auditor’s Response

UPR’s comments are responsive to the recommendation and indicate that they are currently in
the process of developing the procedures as recommended. In some cases, UPR indicates that
the procedures have already been implemented. We encourage UPR to follow through with the
approval and authorization process for implementing the procedures. The report finding cannot
be closed until NSF determines that proposed corrective actions have been satisfactorily
implemented.


Finding 2. Lack of Controls over Subawardee Cost Sharing Expenditures

NSF Grant General Conditions, Article 22, Section C, requires an awardee to maintain records
of all claimed project costs including both cost sharing and NSF direct-funded costs. OMB
Circular A-110, Subpart C, Section .23(a), prescribes the criteria and procedures for the
allowability of cost sharing expenditures and requires, among other things, that cost sharing
meet the same cost principles and documentation requirements as costs directly funded by
NSF. In addition, OMB Circular A-110, Subpart C, Section .51(a), requires awardees to
manage and monitor subawards. The claimed cost sharing must be allocable to the awards,
provided by the subrecipients own funds and not other Federal funds, and be claimed only
once.

Similar to the subaward costs charged to NSF, for both Award Nos. DUE-9753543 and EPS-
0223152, UPR also did not maintain adequate documentation to support cost sharing
expenditures claimed by its subawardees and recipients of start-up funds, or require such
documentation from them, contrary to Federal regulations and NSF award terms and conditions.
UPR does not have policies and procedures to monitor cost sharing claimed by subawardees.
UPR requires its subawardees to submit quarterly performance reports. Under the financial
section of such reports, subawardees are required to certify the amounts of cost sharing
expenditures claimed under the award. However, these subawardee certifications are the only
source documentation maintained by UPR to support the subawardees’ amounts claimed as
cost sharing. No other detail listing or source documentation is submitted by the subawardees
                                              9
with their certifications to support the cost sharing claimed. In addition, UPR has no process in
place to verify the accuracy and validity of the expenses claimed on the subawardee
certifications. UPR relies solely on the subawardees’ certifications to ensure the cost sharing
amounts are accurate and properly documented.

Specifically, UPR accepted cost sharing from its subawardees for approximately $1.3 million in
expenditures based solely on certifications from the subawardees. These certifications provide
little to no detail on the nature or type of costs claimed and are the only source documents
maintained by UPR to support the amount claimed as cost sharing.

This occurred because UPR does not have adequate, risk-based monitoring procedures in
place to ensure that subawardee cost sharing expenditures are accurate, allocable, allowable,
and adequately documented. However, we performed alternative testing at subawardee sites to
affirm that cost sharing claimed was adequate.

As a result of the lack of controls ensuring the accuracy and validity of cost sharing claimed by
its subawardees, UPR in the future may certify to cost sharing expenditures for the NSF award
that either may not exist or may not be allowable per federal and NSF regulations. There is no
review to determine that the claimed cost sharing is allocable to the awards, provided by the
subrecipients own funds and not other Federal funds, and is claimed only once.

Recommendation 2:

We recommend that NSF’s Director of DIAS instruct UPR to develop and implement written
policies and procedures to assess and document each subawardee’s risk of claiming non-
allocable or non-allowable cost sharing expenditures. These policies and procedures should
include a process for reviewing cost sharing expenditures claimed by subawardees for
allowability and allocability. Expenditures should be reviewed to determine they are allocable to
the awards, provided by the subrecipients own funds and not other Federal funds, and are
claimed only once. These reviews should be of sufficient scope and quality to allow UPR to
provide reasonable assurance that all costs claimed are accurate, allowable, and properly
documented per NSF regulations and OMB Circulars.


Awardee Comments

The Subawardee Monitoring Process being developed by the UPR-Resource Center for
Science and Engineering (UPR-RCSE) to ensure that costs claimed by subawardees are
allowable, allocable and properly documented, will include monitoring of cost-sharing
expenditures by subawardees. The periodic reviews to be conducted by UPR-RCSE staff will
include revision of cost sharing expenditures claimed by subawardees for allowability and
allocability, and compliance with NSF regulations, OMB Circulars A-110 and A-133, and any
other OMB Circulars.


Auditor’s Response

The procedures being developed by UPR are responsive to the recommendation. We
emphasize the need to include procedures to determine that cost sharing expenditures are
provided by the subrecipients own funds and not other Federal funds, and are claimed as cost
sharing only once. The report finding cannot be closed until NSF determines that proposed
corrective actions have been satisfactorily implemented.



                                               10
Finding 3.     Lack of Policies and Procedures to Ensure Indirect Costs are Properly
Claimed

NSF Grant Policy Manual, Section 633.1(b)(4) – Indirect Costs Basic Policy– provides that one
method of indirect cost rates used on NSF awards is a “Fixed Dollar Amount: A fixed dollar
amount limits grantees to the “amount” of indirect costs specified in the approved budget. A
fixed indirect dollar amount is not subject to adjustment.”

For the first two years of award No. DUE-9753543, UPR claimed XXXX per year for indirect
costs. However, the Cooperative Agreement states that “In lieu of an indirect cost allowance at
a predetermined fixed rate, this agreement includes a fixed dollar amount from NSF for indirect
costs of XXXXX per year for years one and two as specified in the approved June 27, 1998
budgets.” This resulted in an over billing for indirect costs of $7,500 for the first two years of the
award.

As a result of the lack of controls to adequately review the indirect costs claimed, UPR claimed
excess indirect costs in the total amount of $7,500.

Per the Finance Office, Assistant Director, the accountant in charge of managing this grant used
the wrong budget document when she was setting up the spending limits in their system.
Because there were not adequate policies and procedures for reviewing the amount of indirect
costs claimed this error went undetected.


Recommendation 3:

We recommend that NSF’s Director of DIAS instruct UPR to include in their policies and
procedures a provision for reviewing to ensure indirect costs authorized and claimed are
accurate. When UPR is given an award, and is ready to set it up in their system, the accountant
in charge of the specific grant is given an approval document authorizing them to setup the
accounts needed in the system. We recommend that UPR include the approved budget
document as part of that package to ensure that the accountants are using the correct budgeted
amounts during this process.


Awardee’s Comments

To ensure that indirect costs authorized and claimed are accurate, the UPR-RCSE has
implemented the following internal control: From now on the Cooperative Agreement with the
budget approved by the Federal Agency will be the official document on file to be used by the
UPR-RCSE accounting staff to create the project’s accounts and budgets. This ruling was
made effective on January 30, 2007 (See Appendix of this report for copy of memo from the
Finance Director of the UPR-RCSE to the accounting staff).


Auditor’s Response

The Awardee’s Comments are responsive to the finding and recommendation. The new ruling
requiring the cooperative agreement with the approved budget, in connection with adequate
review, should eliminate the situation that resulted in this finding. The report finding cannot be
closed until NSF determines that proposed corrective actions have been satisfactorily
implemented.



                                                 11
We considered these internal control deficiencies in forming our opinion of whether Schedules
A-1 through A-2 were presented fairly in all material respects, in conformity with National
Science Foundation policies and procedures, and determined that this report does not affect our
report dated October 20, 2006 on the financial schedules.

This report is intended solely for the information and use of UPRs management, the National
Science Foundation, UPR’s federal cognizant agency, the Office of Management and Budget,
and the Congress of the United States of America and is not intended to be and should not be
used by anyone other than those specified parties.


Mayer Hoffman McCann P.C.
Conrad Government Services Division




Irvine, California
October 20, 2006




                                              12
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


            INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by the University of Puerto Rico (UPR) to the National
Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) for the NSF
awards listed below. In addition, we also audited the amount of cost sharing claimed on the
awards. The FCTRs, as presented in the Schedules of Award Costs (Schedules A-1 through A-
2), are the responsibility of UPR’s management. Our responsibility is to express an opinion on
the Schedules of Award Costs (Schedules A-1 through A-2) based on our audit.


      Award Number                  Award Period                  Audit Period
      DUE – 9753543                07/01/98 – 12/31/03          07/01/98 – 12/31/03
      EPS – 0223152                06/01/03 – 05/31/07          06/01/03 – 03/31/06




Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America; Government Auditing
Standards (2003 revision), issued by the Comptroller General of the United States; and, the
National Science Foundation Audit Guide (September 1996), as applicable. These standards
and the National Science Foundation Audit Guide, require that we plan and perform the audit to
obtain reasonable assurance that the amounts claimed to NSF as presented in the Schedules of
Award Costs (Schedules A-1 through A-2) are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedules
of Award Costs (Schedules A-1 through A-2). An audit also includes assessing the accounting
principles used and the significant estimates made by UPR, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

The Schedule of Questioned Costs (Schedule B) explains the $16,030 (.18%) of total claimed
NSF funds that we have questioned for allowability. These costs include unallowable
subawardee costs and incorrectly claimed indirect costs.



                                             13
Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific award conditions, (2) costs that require
additional support by awardee, or (3) costs that require interpretation of allowability by NSF’s
Division of Institution and Award Support (DIAS). NSF will make the final determination of cost
allowability. The ultimate outcome of this determination cannot presently be determined.
Accordingly, no adjustment has been made to costs claimed for any potential disallowance by
NSF.

In our opinion, except for the $16,030 of questioned NSF-funded costs, the Schedules of Award
Costs (Schedules A-1 through A-2) referred to above present fairly, in all material respects,
costs claimed on FCTRs for the period July 1, 1998 to March 31, 2006 in conformity with the
National Science Foundation Audit Guide, NSF Grant Policy Manual, terms and conditions of
the NSF awards and on the basis of accounting described in the Notes to the Financial
Schedules. These schedules are not intended to be a complete presentation of financial
position in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards, and provisions of the National Science
Foundation Audit Guide, we have also issued a report dated October 20, 2006, on our tests of
UPR’s compliance with certain provisions of laws, regulations, and NSF award terms and
conditions and our consideration of UPR’s internal control over financial reporting. The purpose
of that report is to describe the scope of our testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. That report is an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in
conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of UPR’s management, NSF, UPR’s
federal cognizant agency, the Office of Management and Budget, and the Congress of the
United States of America and is not intended to be, and should not be used by anyone other
than these specified parties.


Mayer Hoffman McCann P.C.
Conrad Government Services Division




Irvine, California
October 20, 2006




                                               14
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                                                        SCHEDULE A-1
                                             UNIVERSITY OF PUERTO RICO
                                National Science Foundation Award Number DUE-9753543
                                                 Schedule of Award Costs
                                            July 1, 1998 - December 31, 2003
                                                           Final



                           Approved                  Claimed        Reclassification        Audited         Questioned Schedule
     Cost Category          Budget                   Costs (A)         of Costs             Totals            Costs    Reference
Direct costs:
  Salaries and wages      XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                   -
  Fringe benefits         XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                   -
  Equipment               XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                   -
  Travel                  XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                   -
  Participant support     XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                   -
  Other direct costs:     XXXXXXXX                 XXXXXXXX                              XXXXXXXX
     Material and supplie XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                  -
     Publications         XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                  -
     Consulting           XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                  -
     Subcontractor        XXXXXXXX                 XXXXXXXX                     -        XXXXXXXX                8,530        B, Note B-1
     Other direct costs XXXXXXXX                   XXXXXXXX                     -        XXXXXXXX                  -

        Total direct costs                -                   -                 -                   -            8,530

Indirect costs                XXXXXXXX             XXXXXXXX                     -        XXXXXXXX                7,500        B, Note B-2

        Total                 XXXXXXXX             XXXXXXXX                     -        XXXXXXXX              16,030

Cost sharing                  $ 1,750,000             1,749,588                 -           1,749,588               -


  (A) - The total claimed costs agrees with the total expenditures reported by the University of Puerto Rico on the Federal
  Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended December 31, 2003. Claimed
  costs reported above are taken from the awardee's books of accounts.




                  The Accompanying Notes to Financial Schedules are an Integral Part of this Schedule
                                                        15
                                                                                                                          SCHEDULE A-2
                                             UNIVERSITY OF PUERTO RICO
                                National Science Foundation Award Number EPS-0223152
                                                Schedule of Award Costs
                                              June 1, 2003 - March 31, 2006
                                                         Interim



                           Approved                  Claimed        Reclassification        Audited        Questioned         Schedule
     Cost Category          Budget                   Costs (A)         of Costs             Totals           Costs            Reference
Direct costs:
  Salaries and wages      XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
  Fringe benefits         XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
  Equipment               XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
  Travel                  XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
  Participant support     XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
  Other direct costs:     XXXXXXXXX                 XXXXXXXXX                            XXXXXXXXX
     Material and supplie XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
     Publication          XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
     Consulting           XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
     Subcontractor        XXXXXXXXX                 XXXXXXXXX                   -        XXXXXXXXX                    -
     Other direct costs XXXXXXXXX                   XXXXXXXXX                   -        XXXXXXXXX                    -

        Total direct costs                -                   -                 -                   -                 -

Indirect costs                XXXXXXXXX             XXXXXXXXX                   -        XXXXXXXXX                    -

        Total                 XXXXXXXXX             XXXXXXXXX                   -        XXXXXXXXX                    -

Cost sharing                  $ 3,150,000             1,747,889                 -           1,747,889                 -



  (A) - The total claimed costs agrees with the total expenditures reported by the University of Puerto Rico on the
  Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended March 31, 2006.
  Claimed costs reported above are taken from the awardee's books of accounts.




                 The Accompanying Notes to Financial Schedules are an Integral Part of this Schedule
                                                       16
                                                                              SCHEDULE B

                           UNIVERSITY OF PUERTO RICO
                     National Science Foundation Award Numbers:
                             DUE–9753543, EPS-0223152
                             Schedule of Questioned Costs
                          From July 1, 1998 to March 31, 2006


Note B-1   Subawardee Costs

           UPR lacked adequate procedures to monitor subawardees to ensure that costs
           were accurate, allocable, allowable, and properly supported per NSF and OMB
           grant requirements. As a result, UPR overcharged $8,530 in subawardee costs
           to NSF Cooperative Agreement No. DUE-9753543 because two subawardees
           were unable to provide adequate supporting documentation and another
           subawardee duplicated a billing for indirect costs. (See Finding and
           Recommendation No. 1 in the Report on Compliance and Other Matters on
           Internal Control Over Financial Reporting.)

           Cooperative Agreement DUE-9753543 (CETP)

           Lack of Supporting Documentation:

               Account No.                     Description          Amount

           Subawardee:

           Interamerican University:
                  6504                     Consultants               $1,397
                  7604                     Office Supplies              300
                  Subtotal                                            1,697
                  Indirect cost at XX                                  XXX
            Subtotal Interamerican University                       XXXXX
           Rio Piedras Campus:
                  39383                    Payroll                    1,385
                  39383                    Travel                       688
                  39392                    Materials & Supplies         711
                  39413                    Payroll                    2,929
                  Subtotal                                            5,713
                  Indirect costs at XX                                  (A)
            Subtotal Rio Piedras Campus                               5,713
           Total Questioned Costs for Lack of Supporting Documentation               $7,546

           (A) No indirect costs questioned on the questioned direct costs because
               Rio Piedras Campus underbilled indirect costs to the award.




                                          17
                UNIVERSITY OF PUERTO RICO
          National Science Foundation Award Numbers:
                  DUE–9753543, EPS-0223152
                  Schedule of Questioned Costs
               From July 1, 1998 to March 31, 2006

                             (Continued)


Duplication in Billing of Indirect Costs

Colegio University

Due to an error that occurred between the second and third invoice that Colegio
University sent to UPR, the amount calculated for indirect costs was billed twice.
The following year Collegio University implemented the BANNER system which
helps to eliminate these types of errors. The overbilling is calculated as follows:


Costs billed for the period July 1, 2002 through June 30, 2003     XXXXXX
Costs as correctly calculated per detail transaction report         XXXXX
Excess due to duplication in billing of indirect costs                        984

     Total Questioned Subawardee Costs                                     $8,530




                                  18
                          UNIVERSITY OF PUERTO RICO
                    National Science Foundation Award Numbers:
                            DUE–9753543, EPS-0223152
                            Schedule of Questioned Costs
                         From July 1, 1998 to March 31, 2006

                                     (Continued)


Note B-2   Indirect Costs

           For the first two years of award No. DUE-9753543, UPR claimed $25,926 per
           year for indirect costs. However, the Cooperative Agreement only allowed fixed
           indirect costs of XXXXX per year for years one and two. This resulted in an over
           billing for indirect costs of XXXXX for the first two years of the CETP award as
           follows:


                                 Indirect Costs        Allowable          Questioned
                                    Claimed          Indirect Costs      Indirect Costs

              Year 1              XXXXXX              XXXXXX                $3,750
              Year 2              XXXXXX              XXXXXX                 3,750

                  Total           XXXXXX              XXXXXX                $7,500


           (See Finding and Recommendation No. 3 in the Report on Compliance and
           Other Matters on Internal Control Over Financial Reporting.)




                                          19
                                                                            SCHEDULE C

                      UNIVERSITY OF PUERTO RICO
             Summary Schedules of Awards Audited and Audit Results
                     From July 1, 1998 to March 31, 2006



Summary of Awards Audited

           Award Number            Award Period               Audit Period
          DUE – 9753543        07/01/98 – 12/31/03       07/01/98 – 12/31/03
          EPS – 0223152        06/01/03 – 05/31/07       06/01/03 – 03/31/06

 Award Number            Type of Award                          Award Description
DUE – 9753543         Cooperative             To assume responsibility for planning, operating,
                      Agreement               and managing The Puerto Rico Collaborative for
                                              Excellence in Teacher Preparation, whose mission
                                              is to promote reform in the teaching and learning of
                                              mathematics and the sciences as regards the
                                              preparation of science and mathematics educators,
                                              K-12.
EPS – 0223152         Grant                   Support the Puerto Rico Experimental Program to
                                              Stimulate Competitive Research (PR-EPSCoR)
                                              effort to build and sustain a nationally competitive
                                              science and engineering research and education
                                              enterprise.

Summary of Questioned and Unsupported Costs by Award

                             Award         Claimed          Questioned      Unsupported
      Award Number           Budget         Costs             Costs            Costs
     DUE – 9753543        $ 5,463,000    $ 5,455,004       $ 16,030           $7,546
     EPS – 0223152          6,300,000      3,342,423           -                 -

Summary of Questioned Cost by Explanation

      Category           Questioned Costs     Internal Controls       Non-Compliance
Salaries and Wages           $ -                     N/A                   N/A
Fringe Benefits                  -                   N/A                   N/A
Equipment                        -                   N/A                   N/A
Travel                           -                   N/A                   N/A
Participant Support              -                   N/A                   N/A
Material & Supplies              -                   N/A                   N/A
Publication                      -                   N/A                   N/A
Consulting                       -                   N/A                   N/A
Subcontractors                 8,530                 Yes                   Yes
Other Direct Costs               -                   N/A                   N/A
Indirect Costs                 7,500                 Yes                   Yes
Cost Sharing                     -                   N/A                   N/A




                                         20
                          UNIVERSITY OF PUERTO RICO
                 Summary Schedules of Awards Audited and Audit Results
                         From July1, 1998 to March 31, 2006

                                      (Continued)



Summary of Non-Compliance and Internal Control Findings

                                    Non-Compliance or Internal
          Findings                           Control             Material or Reportable
Subawardees                         Compliance & Internal               Reportable
                                    Control
Indirect Costs                      Compliance & Internal                Reportable
                                    Control




                                          21
                              UNIVERSITY OF PUERTO RICO
                                Notes to Financial Schedules
                             From July 1, 1998 to March 31, 2006



Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedules have been prepared in conformity with
          National Science Foundation (NSF) instructions. Schedules A-1 and A-2 have been
          prepared from the reports submitted to NSF. The basis of accounting utilized in
          preparation of these reports differs from generally accepted accounting principles.
          The following information summarizes these differences:

           A. Equity
               Under the terms of the awards, all funds not expended according to the award
               agreement and budget at the end of the award period are to be returned to NSF.
               Therefore, the awardee does not maintain any equity in the award and any
               excess cash received from NSF over final expenditures is due back to NSF.

           B. Equipment
               Equipment is charged to expense in the period during which it is purchased
               instead of being recognized as an asset and depreciated over its useful life. As
               a result, the expenses reflected in the Statement of Award Costs include the
               cost of equipment purchased during the period rather than a provision for
               depreciation.
               The equipment acquired is owned by UPR while used in the program for which it
               was purchased or in other future authorized programs. However, NSF has the
               reversionary interest in the equipment. Its disposition, as well as the ownership
               of any proceeds there from, is subject to Federal regulations.

           C. Inventory
               Minor materials and supplies are charged to expense during the period of
               purchase. As a result, no inventory is recognized for these items in the financial
               schedules.

           D. Income Taxes
               UPR is a higher educational institution organized under the laws of the
               Commonwealth of Puerto Rico and is exempt from income taxes.


          The departure from generally accepted accounting principles allows NSF to properly
          monitor and track actual expenditures incurred by the awardee. The departure does
          not constitute a material weakness in internal controls.




                                              22
                              UNIVERSITY OF PUERTO RICO
                                Notes to Financial Schedules
                             From July 1, 1998 to March 31, 2006

                                          (Continued)



Note 2:   NSF Cost Sharing and Matching
          The following represents the cost share requirements and actual cost share as of
          March 31, 2006:
                                 Cost Share           Actual Cost
            Award Number          Required           Share Provided          Over/(Under)
           DUE – 9753543        $ 1,750,000         $ 1,749,588          $         (412)*
           EPS - 0223152          3,150,000            1,747,889             (1,402,111)**

               * Because UPR did not spend the entire NSF budget, the cost share provided
                  was within the budgeted percentage of the total project costs.
              ** UPR has until May 31, 2007 to provide the total cost share budget and is
                  currently on track to do so. In addition, UPR’s cost sharing certified to NSF to
                  date does not include approximately $1.3 million in cost sharing provided by
                  subcontractors.


Note 3:   Indirect Cost Rates

                                    Indirect
            Award Number           Cost Rate                                Base
           DUE – 9753543              Fixed         A fixed amount of $108,010 was approved in the
                                                    original budget and subsequent amendments.
           EPS – 0223152            XXXXXX          Modified Direct Costs (Total direct salaries, fringe
                                                    benefits, materials, supplies, services, travel, and
                                                    sub awards (up to the first XXXXXX).




                                               23
APPENDIX - AUDITEE’S COMMENTS TO
             REPORT
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100

             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
                          BUEFtTO RICG RESOURCE CENTER FOR SCIENCE AND ENGINEERING
i                                                     CENTRALADMlNlSTRAflON
                                                     UNlVERSrrYUF PUERTO RlCO


i                in consortium with the Ana G. Mendez University System,the Pontifical Catholic' Unhrerslly of Puerto Rico,
                             the Inter American Uni~et'Sityof Puerto Rico, and the Caribbean Central Unhrers'W




    March 15,2007

                                                    9-
    Mayer Hoffman McCann.P.C.
    2301 Dupont Drive, Suite 200
    Irvine, CA 92612



    Enclosed please find our written comments. to the draft audit report
    txvering National Science Foundation (NSF) award Nos. DUE-9753543
    and EPS-0223152 awarded to the' University of Puerto Rico during.the"
    period July 1, 1998 through March 31, 2006.

    If you should have any questions regarding our comments, please call me
    at (787) 765-6696.

    Sincerely,




    Enclosure




                                                                                   -
           Facundo Bu~sOBuilding, 3rd. Floor,Office304, Rio Piedras Campus. U.P.R., Rio Piedras
         PO B o x 23334, San Juan, Puerio Rico 00931-3334 Tel. 4787) 765-5170 Fax .(787) 756-7717
                              EqualEmployment Opportunity Employer MMINID
    FINDINGS AND RECOMMENDATIONS

    Finding 1. Inadequate Subawardee Monitoring

    Awardee's Comments:

    The UPR Resource Center for Science and Engineering -(RSCE) is developing a
    Subawardee Financial Monitoring Process that will be ready by September 2007, and will
    be submitted to the UPR Central Administration for approval and authorization for
    implementation. This monitoring process includes periodic reviews of subawardees'
'
    invoices to ensure costs claimed are allowable, allocable and properly documented in
    accordance with NSF regulations, OMB Circulars A-110 and A-133; and any other
    applicable OMB Circulars.

    The UPR-RSCE has already implemented internal controls to.ensure that the amounts on
    the invoices are accurate, allocable, allowable and properly supported. Invoices to be
    submitted by subawardees must now be accompanied by the pertinent supporting
    documentation,and any other evidence that confirms or verifies the expenses claimed in
    order for the UPR-RCSE to proceed with payment. The UPR-RCSE accounting staff has
    been instructed by the Finance Director to comply with this ruling (See copy of letter
    dated January 30,2007).

    The UPR-RSCE accounting staff re-claimed the indirect costs double-billed by one of the
    subawardees. The $984 in question was returned by the subawardee and we will wait for
    NSF instructions on how to proceed with these funds.
Finding 2. Lack of.Controls over Subawardee Cost Sharing Expenditures

Awardee's Comments:

The Subawardee Monitoring Process being developed by the UPR-Resource Center for
Science and Engineering (UPR-RSCE) to ensure that costs claimed by subawardees are
allowable, allocable and properly documented, will include monitoring of cost-sharing
expenditures by subawardees. The periodic reviews to be conducted by UPR-RCSE staff
will include revision of cost sharing expenditures claimed by subawardees for
allowability and allocability, and compliance with NSF regulations, OMB Circulars A-
110 and A- 133, and any other OMB Circulars.


Finding 3. Lack of Policies and Procedures to Ensure Indirect Costs are Properly
Claimed

,Awardee's Comments:

To ensure that indirect costs authorized and claimed .are.accurate, the UPR-RSCE has
implemented the following internal control: From now on the Cooperative Agreement
with the budget approved by the Federal agency will be the official document on file to
be used by the UPR-RCSE accounting staff to create the project's accounts and budgets.
This ruling was made effective on January 30, 2007 (See letter of the Finance Director of
the UPR-RSCE to the accounting.staff).
Note B-1 Subawardee Costs

Awardee's Response

We concur with the finding that two subawardees do not have on file the appropriate
supporting documentation for costs claimed in the amount of $7,546. The Subawardee
Financial Monitoring Process that we are developing and expect to implement as soon as
we are authorized by the UPR Central Administration, will ensure that situations like this
one do not occur in the future. We have already implemented internal controls to ensure
that the amounts on the invoices are accurate, allocable, allowable and properly
supported. Invoices to be submitted by subawardees must now be accompanied by the
pertinent supporting documentation and any other evidence that confirms or verifies the
expenses claimed in order for the UPR-RCSE to proceed with payment. The UPR-RCSE
accounting staff has been instructed by the Finance Director to comply with this ruling
(See copy of letter dated January 30,2007).

Regarding the $984 in indirect costs that was double-billed by one subawardee, the UPR-
RCSE re-claimed. this amount from the subawardee, and it was paid by the subawardee.
We wait for NSF instructions on how to proceed with these funds.


Note B-2 Indirect Costs

Awardee's Response

We concur with the finding thatthe UPR-RCSE over-billed $7,500 in indirect costs for
the first two years of the award. To ensure that this situation does not repeat itself, and
that indirect costs claimed are accurate, the UPR-RSCE has implemented the following
internal control: From now on the. Cooperative Agreement with the budget approved by
the Federal agency will be the official document on file to be used by the UPR-RCSE
accounting staff to create the project's accounts and budgets. This ruling was made
effective on January 30,2007 (See letter of the Finance Director of the UPR-RSCE to the
accounting staff). We wait for NSF instructions on how to proceed with these finds.
                    PUERTORtCO ESOURCE CENTER FOR SCtENCE AND ENGINEERING
                                              CENTRALADMINISTRATION
                                             UNIVERSITY OF PUERTO RlCO

           in consortiumwlth the Ana G. MBndez University.System,the Pontical Catholic University of Puerto Rico.
                       the Inter American Univysity ol Puerto Rico, and theCaribbeanCentral University




Accounting Staff
RCSE




DOCllMENTATlON REQUIRED TO PROCESS INVOICES

It is mandatory that all invoices submitted by subawardees for payment
include the supporting documentation to evidence expenses claimed.
Every accountant needs to make sure that all invoices are accompanied
by the pertinent s~lpportingdocumentation and any other evidence that
confirms or verifies the expenses claimed,. before processing them.
Documentation should include, among others copy of purchase orders,
contracts, invoices, and cancelled checks. This is applicable to all invoices
received for payrnent.

This internal control is effective immediately. Please contact me if you
have any questions.




      Facundo Bueso Building, 3rd. Floor. Office 304. RioPiedras.Campw.U.P.R., Rio Piedras
     PO Box.23334, San Juan, Puerto Rico D0931-3334 Tel. (787) 765-5170 Fax (787) 756-7717
                        Equal Employment Opportunity Employer MMINID
                              PUERTO RlCQ RESOURCE CENTER FOR S C E N E AND ENGIWRING
                                                         CENTRALADMlNlSTRATlON
                                                        UNIVERSITYOF PUERTO RICO

                     in consortium wiUl the Ana G. MBndez U n i v e d i System. the PontiiilCathoIii Universityof Puerto Rim,
                                 the Inter American University of Pueno Rko; and the CaribbeanCentral U n l w m




         January 30,2007



         Accounting Staff
         RCSE




I
         DOCUMENTATION REQUIRED'TO SET LIP AN ACCOUNT IN THE
    ..   FINANCIAL SYSTEM
I
         As.part-.ofthe documentation needed to open an account and create the
         corresponding budget for all grants and contracts, it is required that you
         ,make sure that you have on file the approved Cooperative Agreement,'the
         final budget as approved by the federal agency, and the budget
         justification. No account should be open without these documents.

         'This internal control is effective immediately. Please contact me if you
         have any questions.




                Facundo Bueso Building, 3rd. Floor,Offi 304, Rio Piedras Campus. U.P.A., Rio Piedds
              PO Box 23334, San Juan, Puerlo R i 00931-3334 Tel. (787) 765-5170 Fax (787) 756-7717
                                 Equal Employment OpportunityEmployer MMINID
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oia.nsf.nov

            Email Hotline
            oinC3nsf.gov

            Telephone
           703-292-7100




                -
                Fax
           703-292-9158


                -
                Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
